CERTIFICATE OF SERVICE

I Francis Boyd, petitioner in the above caption action hereby caused a copy of the enclosed
Petition For An Extraordinary Writ Seeking A New Trial, to be sent to the Attorney Generals
office at the address below by placing a copy in the mail, first class, postage pre-paid, in Chester,
Pa. on December 26, 2020.

Attorney Generals Office
Strawberry Square
4th & Walnut Street
16th Floor
Harrisburg, Pa. 17120
December 26,2020
Francis Boyd
Petitioner Pro-Se

